Nos. 19-267, 19-348

INTHE

$)Upreme q[ourt of tbe mlntteb $)tateg
OUR LADY OF GUADALUPE SCHOOL,

Petitioner,
V.
AGNES DEIRDRE MORRISSEY-BERRU,

Respondent.
ST. JAMES SCHOOL,

Petitioner,
V.

DARRYL BIEL, AS PERSONAL REPRESENTATNE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and

that the Brief of Amici Curiae Church of God in Christ, Inc. and Union of Orthodox

Jewish Congregations of America in Support of Petitioners contains 5,765 words and
complies with the word limitation established by Rule 33.l(g)(xii) of the Rules of this
Court.
Dated: February 10, 2020

